U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

January 28, 2021

The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Duy T. Mai v. United States.
S. Ct. No. 20-819

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 18,
2020. The government’s response is now due, after one extension, on February 18, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including March 19, 2021 within which to file the government’s response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General

cc:

See Attached Service List

20-0819
MAI, DUY T.
USA, ET AL.

VITALIY A KERTCHEN
KERTCHEN LAW, PLLC
917 S 10TH ST.
TACOMA, WA 98405
253-905-8415
VITALIY@KERTCHENLAW.COM
WILLIAM J. OLSON
WILLIAM J. OLSON, P.C.
370 MAPLE AVENUE WEST
SUITE 4
VIENNA, VA 22180-5615
703-356-5070
WJO@MINDSPRING.COM

